TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  Delinquent Taxes May Not Be Collected
                Because Required Research Was Not Always
                  Completed Prior to Closing Some Cases
                        As Currently Not Collectible



                                        August 25, 2014

                             Reference Number: 2014-30-052




This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.

Redaction Legend:
1 = Tax Return/Return Information
2 = Risk Circumvention of Agency Regulation or Statute



Phone Number / 202-622-6500
E-mail Address / TIGTACommunications@tigta.treas.gov
Website        / http://www.treasury.gov/tigta
                                                HIGHLIGHTS


DELINQUENT TAXES MAY NOT BE                         research in eight of the 38 Automated Collection
COLLECTED BECAUSE REQUIRED                          System cases. Automated Collection System
RESEARCH WAS NOT ALWAYS                             function employees use an electronic checklist
COMPLETED PRIOR TO CLOSING SOME                     to guide them; however, Field employees do not
                                                    have a checklist. Managers approved the case
CASES AS CURRENTLY NOT
                                                    closures even though the required research
COLLECTIBLE                                         steps were not completed.
                                                    Field employees are required to complete more
Highlights                                          extensive research than Automated Collection
                                                    System function employees before they close
Final Report issued on August 25, 2014              cases as CNC–UTC/UTL. However, the IRS
                                                    does not track whether the additional research
Highlights of Reference Number: 2014-30-052         and time spent is productive.
to the Internal Revenue Service Deputy
                                                    WHAT TIGTA RECOMMENDED
Commissioner for Services and Enforcement.
                                                    TIGTA recommended that the Directors,
IMPACT ON TAXPAYERS                                 Enterprise Collection Strategy and Field
If an IRS employee is unable to contact or          Collection, ensure that controls are in place so
unable to locate (UTC/UTL) a delinquent             that employees complete the required research
taxpayer, the collection case may be closed as      and make NFTL determinations, as well as
currently not collectible (CNC). If all of the      require managers to document that all case
required research steps are not taken prior to      actions have been completed before approving
the case closure, there is a risk that the          any CNC–UTC/UTL case closures. TIGTA also
Government’s interest may not be protected and      recommended verifying that all cases closed as
that taxpayers will not be treated equitably.       CNC–UTC/UTL with aggregate unpaid assessed
                                                    balances of more than $10,000 beginning in
WHY TIGTA DID THE AUDIT                             Fiscal Year 2012 had an NFTL filed on all
                                                    applicable tax periods. Additionally, TIGTA
In Fiscal Year 2012, the IRS closed 482,611 tax
                                                    recommended that an analysis be conducted on
modules involving approximately $6.7 billion as
                                                    the success of the additional research steps
CNC–UTC/UTL. This audit was initiated to
                                                    taken by Field employees prior to closing cases
determine whether these cases were adequately
                                                    as CNC–UTC/UTL.
researched, documented, and approved to
ensure that all actions were taken to collect       In their response to the report, IRS officials
outstanding taxpayer liabilities.                   agreed with all of our recommendations and
                                                    plan to take corrective actions. However,
WHAT TIGTA FOUND                                    management’s planned corrective actions for
Required case actions were not always               two of the recommendations did not fully
completed before closing cases as                   address the recommendations. TIGTA believes
CNC–UTC/UTL. Of a stratified sample of              management should completely address both
250 cases reviewed, there was no evidence that      recommendations to ensure that the
employees completed all of the required             Government’s interest is protected.
research steps for 57 percent of the cases prior
to their closing. Moreover, 7 percent of the
cases did not have a Notice of Federal Tax Lien
(NFTL) filed on all delinquent tax periods as
required.
Collection Field function (Field) employees did
not complete all research in 165 of the 204 Field
cases, while Automated Collection System
function employees did not complete all
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                           August 25, 2014


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR SERVICES AND
                ENFORCEMENT


 FROM:                       Michael E. McKenney
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Delinquent Taxes May Not Be Collected Because
                             Required Research Was Not Always Completed Prior to Closing Some
                             Cases As Currently Not Collectible (Audit # 201330014)

 This report presents the results of or review to determine whether currently not collectible cases
 closed as unable to contact or unable to locate were adequately researched, documented, and
 approved to ensure that all actions were taken to collect outstanding taxpayer liabilities. This
 audit is included in our Fiscal Year 2014 Annual Audit Plan and addresses the major
 management challenge of Tax Compliance Initiatives.
 The Internal Revenue Service (IRS) did not agree with the full amount of our outcome measure.
 Management stated that because Notices of Federal Tax Lien (NFTLs) were filed on some of the
 tax modules owed by the taxpayer in some of the sample cases, the Government’s interest is
 adequately protected in these instances. Additionally, management believes that the tax liability
 could be overstated because some returns were prepared under Internal Revenue Code Section
 6020(b). Part of the amounts assessed may be abated if the taxpayers file returns.
 We do not agree that the Government’s interest is adequately protected if NFTLs are only filed
 on some of the delinquent modules. Furthermore, Internal Revenue Manual 5.16.1.1(4),
 specifically requires an NFTL be filed on all tax modules being reported as currently not
 collectible when the aggregate unpaid balance of all the assessments for the tax modules equals
 or exceeds $10,000, regardless of any individual balance. The NFTL protects the Government’s
 interest for the dollar value of all delinquencies only if all delinquent modules are included. As it
 relates to Internal Revenue Code Section 6020(b) assessments, the IRS must file an NFTL to
 protect the full amount of the assessments since it does not know what portion of the assessments
 may eventually be abated. The outcome measure is based on the amount protected.
                       Delinquent Taxes May Not Be Collected Because
                      Required Research Was Not Always Completed Prior
                      to Closing Some Cases As Currently Not Collectible


Management’s complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. If you have any questions, please contact me or Bryce Kisler,
Acting Assistant Inspector General for Audit (Compliance and Enforcement Operations).




                                                                                        2
                                Delinquent Taxes May Not Be Collected Because
                               Required Research Was Not Always Completed Prior
                               to Closing Some Cases As Currently Not Collectible




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 3
          Required Case Actions Were Not Always Completed
          on Cases Closed As Currently Not Collectible –
          Unable to Contact or Unable to Locate......................................................... Page 3
                    Recommendations 1 through 3:........................................... Page 6

          Procedures Are Inconsistent for Closing Cases As
          Currently Not Collectible – Unable to Contact or
          Unable to Locate ........................................................................................... Page 7
                    Recommendation 4:.......................................................... Page 9


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 10
          Appendix II – Major Contributors to This Report ........................................ Page 12
          Appendix III – Report Distribution List ....................................................... Page 13
          Appendix IV – Outcome Measures............................................................... Page 14
          Appendix V – Glossary of Terms ................................................................. Page 15
          Appendix VI – Management’s Response to the Draft Report ...................... Page 17
         Delinquent Taxes May Not Be Collected Because
        Required Research Was Not Always Completed Prior
        to Closing Some Cases As Currently Not Collectible




                  Abbreviations

ACS         Automated Collection System
BMF         Business Master File
CNC         Currently Not Collectible
FY          Fiscal Year
IMF         Individual Master File
IRM         Internal Revenue Manual
IRS         Internal Revenue Service
NFTL        Notice of Federal Tax Lien
TIGTA       Treasury Inspector General for Tax Administration
UTC         Unable to Contact
UTL         Unable to Locate
                           Delinquent Taxes May Not Be Collected Because
                          Required Research Was Not Always Completed Prior
                          to Closing Some Cases As Currently Not Collectible




                                           Background

The Internal Revenue Service (IRS) attempts to collect Federal taxes due from taxpayers many
different ways, including sending letters, making telephone calls, and meeting face-to-face.
However, collection actions are not always successful. Consequently, IRS employees may close
cases as currently not collectible (CNC)1 after taking all the necessary steps in the collection
process and determining that there is not any income or assets available to resolve the
outstanding taxes owed or if they are unable to contact (UTC) or unable to locate (UTL) the
taxpayer.
The investigation required to close a case as CNC–UTC/UTL varies based on the dollar amount
and case type as well as the function working the case. These cases are normally closed by
employees in either the Automated Collection System (ACS) function or in the Collection Field
function (hereafter referred to as the Field).2 Manager approval is generally required to ensure
that the investigation meets the established standards of thoroughness and integrity.3 Once
closed as CNC, the case is removed from active inventory. Figure 1 shows that 482,611 tax
modules were closed as CNC–UTC/UTL in Fiscal Year (FY) 2012, which accounted for
16 percent of the total tax modules closed as CNC.
              Figure 1: Number of Tax Modules Closed As CNC in FY 2012



                                                            78,656
                                                          (3 percent)
                                                                                     Other CNC
                                                                                     UTL Total
                                                            403,955                  UTC Total
                2,543,925                                 (13 percent)
               (84 percent)



              Source: FY 2012 IRS Collection Activity Report, Recap of Accounts CNC, Report
              Symbol NO-5000-149.



1
  See Appendix V for a glossary of terms.
2
  Cases with an aggregate assessed module balance ******2*****can be closed systemically in the Inventory
Delivery System. Additionally, we identified some cases that were closed by a Collection function unit that
prepares and processes tax returns for nonfiling business taxpayers.
3
  Cases closed as CNC–UTC/UTL in the ACS with an aggregate assessed module balance ****2******do not
require manager approval for closure.
                                                                                                         Page 1
                          Delinquent Taxes May Not Be Collected Because
                         Required Research Was Not Always Completed Prior
                         to Closing Some Cases As Currently Not Collectible


Figure 2 shows that these closures were for a total of $6.7 billion, which accounted for
22 percent of the total dollar amount of tax modules closed as CNC in FY 2012.
                     Figure 2: Amount of Unpaid Assessed Balances
                        of Tax Modules Closed As CNC in FY 2012


                                                        $3.3 Billion 
                                                       (11 percent)

                                                                                 Other CNC
                                                          $3.4 Billion 
               $23.9 Billion                                                     UTL Total
                                                         (11 percent)
               (78 percent)                                                      UTC Total




         Source: FY 2012 IRS Collection Activity Report, Recap of Accounts CNC, Report Symbol
         NO-5000-149.

The other CNC category in both figures includes all other CNC closures such as hardship (exists
when the taxpayer is unable to pay reasonable basic living expenses), decedent and decedent
estates, bankruptcy, and defunct corporations. This review focused on CNC cases closed as
UTC and UTL.
This review was performed with information obtained from the Small Business/Self-Employed
Division located in Washington, D.C., during the period May 2013 through February 2014. We
conducted this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. Detailed information on our audit
objective, scope, and methodology is presented in Appendix I. Major contributors to the report
are listed in Appendix II.




                                                                                                Page 2
                            Delinquent Taxes May Not Be Collected Because
                           Required Research Was Not Always Completed Prior
                           to Closing Some Cases As Currently Not Collectible




                                      Results of Review

The Internal Revenue Manual (IRM) requires that research be completed prior to closing a case
as CNC–UTC/UTL and requires a Notice of Federal Tax Lien (NFTL) to be filed when the
aggregate unpaid balance of assessments equals or exceeds $10,000, with some exceptions.4
However, required research was not always conducted on the cases reviewed, and some cases did
not have an NFTL filed prior to their closure. Specifically, 57 percent5 of a stratified sample of
250 cases did not contain evidence that employees completed required research prior to closing
the cases as uncollectible. NFTLs were not filed on all delinquent tax periods in 7 percent6 of the
250 sampled cases. Following research procedures and filing NFTLs when appropriate helps
protect the Government’s interest and ensures that taxpayers are treated equitably.
In addition, the research procedures for cases closed as CNC–UTC/UTL are different depending
on whether the case is worked by the Field, the ACS function, or other Collection function
employees. Specifically, Field employees are required to perform up to 10 different research
steps prior to closing a case as CNC–UTC/UTL, compared with up to four steps for ACS
function employees.7 The IRS does not track how often these additional research steps result in
more successful attempts to locate or contact a taxpayer. Such information would allow
management to make better decisions about whether to focus limited Field resources on more
productive casework or require the more extensive research on all similar cases prior to closing
them.

Required Case Actions Were Not Always Completed on Cases Closed
As Currently Not Collectible – Unable to Contact or Unable to Locate
The type and amount of required research prior to closing a case as CNC–UTC/UTL depends on
the aggregate unpaid balance of assessments and which IRS function works the case. The IRM
also requires documentation of all actions to support a CNC determination. In addition to the
research requirements, the IRM requires an NFTL to be filed to protect the Federal
Government’s interest when the aggregate unpaid balance of assessments equals or exceeds
$10,000.


4
  Exceptions to filing an NFTL include: when the balance to be reflected on the NFTL is less than $2,500; when the
taxpayer is a defunct corporation or limited liability corporation (if liable) whose assets have been previously
liquidated; or when the taxpayer is deceased and there are no known assets in an estate.
5
  The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the percentage is between 49.17 percent and 64.88 percent.
6
  The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the percentage is between 3.06 percent and 11.48 percent.
7
  Systemic address searches are completed on cases in the ACS to locate new addresses.
                                                                                                           Page 3
                            Delinquent Taxes May Not Be Collected Because
                           Required Research Was Not Always Completed Prior
                           to Closing Some Cases As Currently Not Collectible


Required research steps were not always completed prior to case closure
We reviewed stratified random samples totaling 250 cases closed as CNC–UTC/UTL in
FY 2012 with an aggregate unpaid assessed module balance of $10,000 or more.8 Results
showed that there was no evidence employees completed all of the required research steps in
57 percent of the 250 sampled cases prior to their closing. These research steps include postal
tracers, motor vehicle records, courthouse records for real and personal property, and local
licensing when the taxpayer owns a business.9 If employees performed these searches of outside
sources, they would most likely have included documentation of this type of research in the case
histories. The estimated percentages of missing research steps based on our samples are:
       43 percent of the cases did not have any missing research steps.10
       51 percent of the cases had one to three missing research steps.11
       5 percent of the cases had four to six missing research steps.12
       1 percent of the cases had seven or more missing research steps.13
We determined that some of the required research steps were rarely performed. For example, a
utility search (such as electricity or water service) is required when the aggregate unpaid balance
of assessments for the case is *****2************ and the taxpayer is still living at the last
known address or the business is still operating. However, revenue officers did not conduct a
utility search for 44 of 46 sample cases for which it was required.
Our review of the sample cases also showed that cases worked and closed by ACS function
employees had significantly fewer problems than cases worked and closed by Field employees.14
Specifically,
       8 of 38 cases closed by ACS function employees were missing at least one required
        research step.


8
  The population of Individual Master File cases was 34,421, and we selected a stratified sample of 130 cases. The
population of Business Master File cases was 3,851, and we selected a stratified sample of 120 cases.
9
  See Figure 3 in the next section of the report for a complete list of the required research steps.
10
   The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the percentage is between 35.12 percent and 50.82 percent.
11
   The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the percentage is between 42.9 percent and 58.77 percent.
12
   The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the percentage is between 1.81 percent and 7.64 percent.
13
   This requirement includes only cases worked by Field employees because ACS function employees are required
to complete only four research steps prior to closing a case as CNC–UTC/UTL. The point estimate projection is
based on a two-sided 95 percent confidence interval. We are 95 percent confident that the percentage is between
0.82 percent and 2.11 percent.
14
   These results are not based on the stratified statistical sample. The number of cases worked by the ACS function
and the Field was not available for the population of cases closed as CNC–UTC/UTL in FY 2012.
                                                                                                            Page 4
                            Delinquent Taxes May Not Be Collected Because
                           Required Research Was Not Always Completed Prior
                           to Closing Some Cases As Currently Not Collectible


        165 of 204 cases closed by Field employees were missing at least one required research
         step.15
ACS function employees use an electronic checklist to guide them through the steps required to
resolve cases, including those that are closed as CNC–UTC/UTL. Field employees do not have a
checklist to help ensure that they complete all the steps required prior to a CNC–UTC/UTL
closure. Although the IRM includes a checklist that Field managers can use to ensure that
employees completed all required work on the case prior to approving it as a CNC closure, the
use of the checklist is not required and there was no evidence in the case histories we reviewed
that managers used them. Field managers approved 180 cases for which all required research
was not completed, which potentially reduced revenue collected. We believe that additional
revenue may have been collected on some of the approximately $1.9 billion in delinquent
accounts if the managers had ensured that all required research steps were taken by their
employees prior to closing the cases as CNC–UTC/UTL.16 It should be noted though that even
with the additional research it may be difficult for the IRS to collect on these outstanding
liabilities considering that these taxpayers have already proven to be difficult to contact or locate.

NFTLs were not always filed prior to case closure
If a taxpayer does not respond to letters sent by the IRS for delinquent taxes, designated IRS
employees are authorized to file an NFTL at appropriate local government offices. An NFTL
protects the Federal Government’s interest by publicly attaching a claim to the taxpayer’s assets
for the amount of the taxpayer’s unpaid tax. The IRM requires filing an NFTL on all modules
being reported as CNC when the aggregate unpaid balance of all the assessments for the tax
modules equals or exceeds $10,000, regardless of any individual balance. However, we
determined that 7 percent of 250 sampled cases closed as CNC–UTC/UTL in FY 2012 did not
have an NFTL filed on all delinquent tax periods as required. For some of the exception cases
for which an NFTL was not filed on all of the tax modules, IRS management initially advised us
that an NFTL should not be filed when the unpaid balance involves a tax module less than
$2,500, except in rare circumstances. However, management’s initial position did not take into
account the aggregate $10,000 criterion, which would require that an NFTL be filed for these tax
modules. All delinquencies, regardless of the balance, should be included when calculating the
aggregate $10,000 criterion for filing the NFTL. As a result, employees may be unclear about
the requirement to file an NFTL when the unpaid balance of assessments of all tax modules
combined equals or exceeds $10,000.




15
   The sample cases that we reviewed included 38 cases closed by the ACS function and 204 cases closed by the
Field, for a total of 242 cases. The additional eight sample cases we reviewed were closed by another Collection
function unit.
16
   The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the total dollar amount is between $1.65 billion and $2.19 billion.
                                                                                                            Page 5
                            Delinquent Taxes May Not Be Collected Because
                           Required Research Was Not Always Completed Prior
                           to Closing Some Cases As Currently Not Collectible


The Government’s interest is not adequately protected when liens are not filed when appropriate.
Additionally, taxpayers are not treated equitably when the IRS does not consistently follow its
procedures to file an NFTL on taxpayers in similar situations. We determined that
approximately $55.3 million was not protected because NFTLs were not filed when required.17 It
must be noted that filing these NFTLs may not result in the IRS collecting additional revenue if
assets are not identified for these taxpayers as they have already proven to be difficult to contact
or locate.

Recommendations
The Director, Enterprise Collection Strategy, and the Director, Field Collection, should:
Recommendation 1: Ensure that controls are in place so that Collection function employees
complete the required research and make NFTL determinations before closing cases as
CNC–UTC/UTL. This might include developing a checklist that could be inserted into the case
history to verify that all necessary actions have been performed prior to case closure.
        Management’s Response: IRS management agreed with this recommendation.
        Specifically, management will issue interim guidance for IRM 5.16.1 to add a checklist
        for required case actions.
Recommendation 2: Require managers to document that all required case actions have been
completed before approving cases to be closed as CNC–UTC/UTL. This might include requiring
the use of the IRM checklist to verify that all case actions have been completed prior to
approving the case for closure.
        Management’s Response: IRS management agreed with this recommendation.
        Specifically, management has developed a new CNC checklist for Field Collection
        function group managers. The checklist has been provided to their training function for
        incorporation and use in the FY 2014 Field Collection Leadership Continuing
        Professional Education course, “Collection Management Fundamentals.”
Recommendation 3: Review cases closed as CNC–UTC/UTL with aggregate unpaid
assessed balances of more than $10,000 beginning in FY 2012 for which an NFTL was not filed
on all applicable tax periods and determine if an NFTL should be filed to protect the
Government’s interest. This might initially be a sample of cases to determine the extent of the
issue. If the problem is determined to be extensive, review all cases closed as CNC–UTC/UTL
beginning in FY 2012.
        Management’s Response: IRS management agreed with this recommendation.
        Specifically, management will conduct a one-time case review of a sample of ACS and


17
  The point estimate projection is based on a two-sided 95 percent confidence interval. We are 95 percent confident
that the total dollar amount is between $28.5 million and $82.1 million.
                                                                                                           Page 6
                        Delinquent Taxes May Not Be Collected Because
                       Required Research Was Not Always Completed Prior
                       to Closing Some Cases As Currently Not Collectible


       Field cases closed as CNC–UTC/UTL in FYs 2012 and 2013. The sample will only
       include cases with an aggregate unpaid assessed balance of more than $10,000 for which
       no NFTL has been filed to protect the Government’s interest. They will file an NFTL if
       they determine that it is the appropriate action.
       Office of Audit Comment: Although the IRS agreed with this recommendation, the
       planned corrective action for verifying that an NFTL was filed on all applicable tax
       periods does not include sampling cases closed in FY 2014, sampling cases that may
       have had NFTLs filed on some but not all applicable tax periods, or a plan of action if
       sample results show that there is a significant problem with employees not filing NFTLs.
       We believe management should completely address the recommendation to ensure that
       the Government’s interest is protected.

Procedures Are Inconsistent for Closing Cases As Currently Not
Collectible – Unable to Contact or Unable to Locate
IRS employees who work in the Field and the ACS function have different skill sets.
Specifically, Field personnel have technical skills that allow them to take more steps when trying
to locate or contact delinquent taxpayers. The IRM recognizes these different skill sets by
requiring Field personnel to conduct more detailed research prior to closing a case as CNC. It
also limits the dollar amounts that ACS function employees may close as CNC–UTC/UTL to
only cases with aggregate unpaid assessed balances *****2*********** if the cases include
in-business trust fund liabilities and *******2******* for all other cases. Field employees can
work cases with any assessed balance.
When a delinquency is *****2********, Field and ACS function employees conduct the same
research before closing the cases as CNC–UTC/UTL. However, the required research differs
when the total unpaid delinquency is ******2******************. Figure 3 compares the
research steps required by Field and ACS function employees prior to closing a case as
CNC–UTC/UTL for cases with an aggregate unpaid assessed balance *****2*************
*****2*****.




                                                                                           Page 7
                             Delinquent Taxes May Not Be Collected Because
                            Required Research Was Not Always Completed Prior
                            to Closing Some Cases As Currently Not Collectible


                     Figure 3: Research Steps Required to Close Cases
                       As CNC–UTC/UTL When the Aggregate Unpaid
                     Assessed Balance Is Between ***********2***************
                                                              Required for Field    Required for ACS
                  Research Steps Required                        Employees         Function Employees
     Telephone directories                                            X                    X
     IRS’s Information Returns Processing data                        X                    X
     Send a postal tracer                                             X
     Motor vehicle records                                            X
     Employment commissions                                           X
     Courthouse records for real and personal property                X
     Local licensing when the taxpayer owns a business                X
     Online resources (Accurint)                                      X                    X
     Integrated Data Retrieval System tax return                      X                    X
     research, if the due date of the last filed return was
     within the past two years
     Currency and Banking Retrieval System research               X
     when Integrated Data Retrieval System research
     reflects that a taxpayer has filed a Foreign Bank
     Account Reporting form, and possible use of a Tax
     Attache for International accounts
    Source: IRM 5.16.1 for Field employee requirements and IRM 5.19.5 for ACS function employee
    requirements.

Although ACS function employees do not conduct postal tracers, systemic address searches are
conducted on all cases with undeliverable mail, which could locate updated address information.
Additionally, the Accurint online research tool includes motor vehicle records, courthouse
records, and licensing information; however, the tool is updated only every six months. Field
employees are therefore required to research Accurint and other sources to have more current
information. Collectively, for cases with aggregate unpaid assessments *****2*************
***2******, Field employees are required to perform up to 10 different research steps prior to
closing the case as CNC–UTC/UTL, compared with up to four steps for ACS function
employees. Specifically, unlike Field employees, ACS function employees do not directly
research current motor vehicle records, courthouse records, and local licensing authorities, and
they do not research employment commissions or Currency and Banking Retrieval System
information before closing cases as CNC–UTC/UTL.
The IRS does not have a process in place to determine the value of the more extensive research
taken by Field employees. As a result, management does not have complete information for
determining whether the additional research steps result in more successful attempts to contact or
locate taxpayers. If the additional research steps are not cost effective, Field employees could

                                                                                                    Page 8
                        Delinquent Taxes May Not Be Collected Because
                       Required Research Was Not Always Completed Prior
                       to Closing Some Cases As Currently Not Collectible


spend more time working more productive cases. Conversely, if the additional research steps
prove to be beneficial, management should consider requiring them for all similar cases based on
the merits of the case instead of the skills of the employees working them. Compiling such
information would allow management to make more informed decisions about the amount of
time and effort employees should spend before closing cases as CNC–UTC/UTL.
In addition to the cases worked by the ACS function and the Field, we identified eight cases in
our sample that were closed by a Collection function unit that prepares and processes tax returns
for nonfiling business taxpayers. The IRM authorizes this unit to close cases as CNC–UTL
based on undeliverable mail without conducting any additional research and without manager
approval. Therefore, these cases were closed without any research that may have helped the IRS
to contact or locate these taxpayers.
Management Action: In response to our questions about the cases closed by the Collection
function unit based on undeliverable mail without manager approval, the IRS responded that it
will be updating the IRM. The update will remove CNC guidance from this unit’s IRM section
and all future cases with undeliverable mail will follow normal collection processing, after the
taxpayer delinquency investigation processing has been closed, to include manager approval.

Recommendation
Recommendation 4: The Director, Enterprise Collection Strategy, and the Director, Field
Collection, should consider conducting an analysis of the success of the additional research
steps taken by Field employees prior to closing cases as CNC–UTC/UTL. Based on this
analysis, determine whether the additional research steps should be taken on all cases with
aggregate unpaid assessed balances ***************2********** prior to closing cases as
CNC–UTC/UTL or whether the required research for revenue officers should be changed to
eliminate unproductive research steps.
       Management’s Response: IRS management agreed with this recommendation.
       Specifically, management will conduct a one-time case review of a sample of Field cases
       closed as CNC–UTC/UTL in FY 2015 with an aggregate unpaid assessed balance
       ************2************* to determine whether the required research for revenue
       officers should be changed to eliminate unproductive research steps.
       Office of Audit Comment: Although the IRS agreed with this recommendation, the
       planned corrective action does not include a plan of action if sample results show that
       Field employees’ additional research steps were successful at finding delinquent
       taxpayers. We believe management should completely address the recommendation to
       ensure that the Government’s interest is protected.




                                                                                           Page 9
                              Delinquent Taxes May Not Be Collected Because
                             Required Research Was Not Always Completed Prior
                             to Closing Some Cases As Currently Not Collectible


                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether CNC1 cases closed as UTC or UTL were
adequately researched, documented, and approved to ensure that all actions were taken to collect
outstanding taxpayer liabilities. To accomplish the objective, we:
I.         Determined the adequacy of the guidance to properly close cases as CNC–UTC/UTL.
           This included comparing the IRM for ACS Inventory (IRM 5.19.5) and Collection
           Inventory (IRM 5.16.1) to determine if they were consistent for the required research to
           close a case as CNC–UTC/UTL.
II.        Reviewed FY 2012 CNC–UTC/UTL cases downloaded from the Data Center Warehouse
           to verify the accuracy of the data.
III.       Obtained stratified random samples from the FY 2012 Data Center Warehouse
           downloads of Individual Master File (IMF) and Business Master File (BMF) taxpayers
           with accounts closed as CNC–UTC/UTL and reviewed them to determine if the cases
           were properly researched.
           A. Obtained and reviewed the histories of the sampled cases from the Integrated
              Collection System and Account Management Services to determine if the appropriate
              research was documented in the case files to support the CNC–UTC/UTL case
              closure to meet the requirements in the IRM.
           B. Reviewed sampled cases to determine if there was documented manager approval and
              if an NFTL was filed when applicable.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the
systems for measuring, reporting, and monitoring program performance. We determined
that the following internal controls were relevant to our audit objective: IRM guidance for
CNC–UTC/UTL actions to ensure that required research is conducted before cases are closed as
CNC. We evaluated these controls by reviewing statistical samples of IMF and BMF
CNC–UTC/UTL cases and interviewing Collection function personnel.




1
    See Appendix V for a glossary of terms.
                                                                                             Page 10
                       Delinquent Taxes May Not Be Collected Because
                      Required Research Was Not Always Completed Prior
                      to Closing Some Cases As Currently Not Collectible


Data validation methodology
During this review, we evaluated the reasonableness of our FY 2012 CNC–UTC/UTL population
by comparing the Data Center Warehouse totals with the FY 2012 IRS Collection Activity
Report, Recap of Accounts Currently Not Collectible, Report Symbol NO-5000-149 totals. The
comparison determined that the data were sufficiently reliable and could be used to meet the
objective of this audit.
Sampling methodology
We obtained our samples from cases with an aggregate unpaid assessed module balance of
$10,000 or more. The sample size of 250 was based on available resources, and the strata were
defined to improve the projection of the overall error dollars. The population of IMF cases was
34,421, and we selected a stratified sample of 130 cases (80 cases with aggregate assessed
module balances of $10,000 through $100,000; 46 cases between $100,000 and $65 million; and
four cases of $65 million or more). The population of BMF cases was 3,851, and we selected a
stratified sample of 120 cases (80 cases with aggregate assessed module balances of $10,000
through $100,000 and 40 cases of more than $100,000). TIGTA’s contracted statistician
reviewed and assisted in developing the sampling plans and projections.




                                                                                        Page 11
                      Delinquent Taxes May Not Be Collected Because
                     Required Research Was Not Always Completed Prior
                     to Closing Some Cases As Currently Not Collectible


                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Bryce Kisler, Acting Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Glen J. Rhoades, Audit Manager
Richard Viscusi, Acting Audit Manager
Beverly K. Tamanaha, Lead Auditor
Charles S. Nall Jr., Senior Auditor
Brian G. Foltz, Auditor




                                                                                     Page 12
                      Delinquent Taxes May Not Be Collected Because
                     Required Research Was Not Always Completed Prior
                     to Closing Some Cases As Currently Not Collectible


                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division SE:S:CS
Director, Field Collection, Small Business/Self-Employed Division SE:S:FC
Director, Filing and Payment Compliance, Wage and Investment Division SE:W:CP:FPC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                                   Page 13
                              Delinquent Taxes May Not Be Collected Because
                             Required Research Was Not Always Completed Prior
                             to Closing Some Cases As Currently Not Collectible


                                                                                   Appendix IV

                                      Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Revenue Protection – Potential; $55.3 million (see page 3).

Methodology Used to Measure the Reported Benefit:
Of the 130 IMF1 and 120 BMF cases we reviewed, we found that seven IMF cases with
aggregate unpaid assessed module balances of $79,230 and 19 BMF cases with aggregate unpaid
assessed module balances of $1.475 million did not have an NFTL filed on all tax modules. The
projection of the exception cases and total error dollars were calculated for the stratified samples.
The IMF projected error rate was 7 percent (2,237 taxpayers), with the average dollar amount per
case of $736. The BMF projected error rate was 14 percent (545 taxpayers), with the average
dollar amount per case of $7,776. The point estimate projections are based on a two-sided
95 percent confidence interval. We are 95 percent confident that the true IMF error rate is
between 1.88 percent and 11.12 percent (647 and 3,828 taxpayers) and the true BMF error rate is
between 7.78 percent and 20.51 percent (300 and 790 taxpayers). Using the average combined
dollar amount per case of $1,444 and the population of 38,272 taxpayers, we found that
approximately $55.3 million in potential revenue was not protected due to NFTLs not being
filed. The point estimate projection is based on a two-sided 95 percent confidence interval. We
are 95 percent confident that the true number of taxpayers affected is between 1,173 and 4,392
and the total dollar amount is between $28.5 million and $82 million.




1
    See Appendix V for a glossary of terms.
                                                                                            Page 14
                        Delinquent Taxes May Not Be Collected Because
                       Required Research Was Not Always Completed Prior
                       to Closing Some Cases As Currently Not Collectible


                                                                                   Appendix V

                                Glossary of Terms

Account Management Services – Enables access to multiple IRS systems, including the ACS,
using only one computer terminal. Functionality includes inventory management; next case
delivery; nationwide history and follow-ups; correspondence received from taxpayers concerning
lost, stolen, destroyed, or returned refunds; immediate print capabilities to fax to taxpayer; and
generation of electronic referrals.
Accurint – A web-based research tool for public records/asset locator researching. Additional
databases have been added to the tool for specific IRS needs.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Business Master File – IRS database that consists of Federal tax-related transactions and
accounts for businesses. These include employment taxes, income taxes on businesses, and
excise taxes.
Collection Field Function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Currency and Banking Retrieval System – Contains Bank Secrecy Act data including Report
of International Transportation of Currency or Monetary Instruments and Report of Foreign
Bank and Financial Accounts.
Currently Not Collectible – Accounts can be declared currently not collectible for numerous
reasons including: bankruptcy, defunct, hardship, in-business, unable to locate, unable to
contact, decedent, etc.
Data Center Warehouse – Delivers data analysis capabilities to TIGTA’s business units. This
availability to data and analysis tools enables TIGTA to conduct audits, investigations, integrity
projects, and administrative support activities in a timely and efficient manner.
Individual Master File – IRS database that maintains transactions or records of individual tax
accounts.
Information Returns Processing – Information Returns Master File Processing creates a master
file of current tax year information returns and maintains access to nine prior years.
Integrated Collection System – An information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer


                                                                                           Page 15
                        Delinquent Taxes May Not Be Collected Because
                       Required Research Was Not Always Completed Prior
                       to Closing Some Cases As Currently Not Collectible


information, while in the field, using laptop computers for quicker case resolution and improved
customer service.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information. It works in conjunction with a taxpayer’s account records.
Internal Revenue Manual – The operations manual for employees of the IRS.
Licensing – Many professions require a license, generally from the State or provincial
government, in order to ensure that the public will not be harmed by the incompetence of the
practitioners. Examples of these professions are: architecture, interior design, engineering,
teachers, medical practitioners, lawyers, psychologists, geologists, and certified public
accountants.
Motor Vehicle Records – All States and the District of Columbia have a department or office of
motor vehicles, which requires State residents who own a motor vehicle to register their motor
vehicle and requires State residents who drive a motor vehicle to hold a valid driver’s license.
Information maintained by the various departments or offices of motor vehicles varies from State
to State. Most States provide driver information, lien holders, and vehicle information on cars,
trucks, etc., and identification card information.
Notice of Federal Tax Lien – A public document that the IRS files to alert creditors that the
Government has a legal right to a taxpayer’s property. A Federal tax lien is the Government’s
legal claim against a taxpayer’s property when he or she neglects or fails to pay a tax debt. The
lien protects the Government’s interest in all property, including real estate, personal property,
and financial assets.
Postal Tracer – A Form 4759, Address Information Request – Postal Tracer, is prepared to
request information from the U.S. Postal Service. Form 4759 may be used to: obtain the
physical address of a Post Office Box holder; verify possible non–Master File addresses; request
directions to an address; or confirm the Master File address of record when a field call verifies
that the taxpayer is UTC or UTL at that address.
Revenue Officer – Employees in the Field who attempt to contact taxpayers and resolve
collection matters that have not been resolved through notices sent by the IRS campuses or the
ACS.
Tax Attache – The senior IRS official serving in a foreign post of duty who is the IRS
Commissioner’s Representative in those foreign jurisdictions in all matters delegated by the
Deputy Commissioner International. Upon request, the Tax Attache gathers foreign-based
information to support IRS examinations and investigations, as well as the Department of Justice
and the Department of the Treasury, by conducting record searches, obtaining certification of
foreign documents, securing testimony, and interviewing taxpayers and third parties.
Taxpayer Delinquency Investigation – An unfiled tax return for a taxpayer. One taxpayer
delinquency investigation exists for all tax periods.

                                                                                           Page 16
                            Delinquent Taxes May Not Be Collected Because
                           Required Research Was Not Always Completed Prior
                           to Closing Some Cases As Currently Not Collectible


                                                                                                  Appendix VI


           Management’s Response to the Draft Report

                                          DEPARTMENT OF THE TREASURY
                                           INTERNAL REVENUE SERVICE
                                             WASHINGTON. D.C. 20224

           COMMISSIONER
SMALL BUSINESS/SELF·EMPLOYED DIVISION



                                                    July 25, 2014


MEMORANDUM FOR MICHAEL E. MCKEN
               DEPUTY INSPECTOR GENERAL FOR AUDIT

FROM:                    Karen Schiller /s/ Karen Schiller
                         Commissioner, Small Business/Self-Employed Division

SUBJECT:                 Draft Audit Report - Delinquent Taxes May Not Be Collected Because Required Research
                         Was Not Always Completed Prior to Closing Some Cases as Currently Not Collectible
                         (Audit# 201330014)

Thank you for the opportunity to review your draft report titled "Delinquent Taxes May Not Be Collected Because
Required Research Was Not Always Completed Prior to Closing Some Cases as Currently Not Collectible (Audit#
201330014)". We agree with your findings and appreciate your acknowledgement of our responsiveness to questions
you raised about cases closed because of undeliverable mail.

In Fiscal Year 2012, the IRS closed nearly 500,000 tax modules as currently not collectible-unable to contact/unable to
locate (CNC-UTC/UTL). After reviewing a sample of these cases, you found some documentation and managerial
review shortcomings. We generally agree with your recommendations which should assist in improving our case work
and have already initiated some of the recommended actions. We developed a checklist of research requirements for
revenue officer and group manager use. The checklist will be incorporated into a group manager Continuing
Professional Education (CPE) course that will be delivered this year.

However, we do not agree with the outcome measure related to Notice of Federal Tax Liens (NFTL). We believe that
your methodology overstates the potential revenue that is not protected when an NFTL was not filed for every
delinquent tax module owed by the taxpayer. ***********************1*************
*****************************************1***********************************************.

We believe that the government's interest is adequately protected in these cases. Additionally, the business cases
include assessments resulting from returns prepared by the IRS under IRC § 6020(b). In many of these cases, all or
part of the assessment may be abated when the taxpayer is located and files a return. Taking these factors into

                                                                                                              Page 17
 Delinquent Taxes May Not Be Collected Because
Required Research Was Not Always Completed Prior
to Closing Some Cases As Currently Not Collectible




                                                     Page 18
 Delinquent Taxes May Not Be Collected Because
Required Research Was Not Always Completed Prior
to Closing Some Cases As Currently Not Collectible




                                                     Page 19
 Delinquent Taxes May Not Be Collected Because
Required Research Was Not Always Completed Prior
to Closing Some Cases As Currently Not Collectible




                                                     Page 20
                            Delinquent Taxes May Not Be Collected Because
                           Required Research Was Not Always Completed Prior
                           to Closing Some Cases As Currently Not Collectible




RECOMMENDATION 4:
The Director, Enterprise Collection Strategy, and the Director, Field Collection, should consider conducting an
analysis of the success of the additional research steps taken by Field employees prior to closing cases as CNC–
UTC/UTL. Based on this analysis, determine whether the additional research steps should be taken on all cases with
aggregate unpaid assessed balances *******2******* prior to closing as CNC–UTC/UTL or whether the required
research for revenue officers should be changed to eliminate unproductive research steps.

CORRECTIVE ACTION:
We will conduct a one-time case review of a sample of Field cases closed as CNC-UTC/UTL in FY 2015 with an
aggregate unpaid assessed balance ********2****** to determine whether the required research for revenue officers
should be changed to eliminate unproductive research steps.

IMPLEMENTATION DATE:
September 15, 2015

RESPONSIBLE OFFICIAL(S):
Director, Enterprise Collection Strategy, Small Business/Self-Employed Division
Director, Field Collection, Small Business/Self-Employed

CORRECTIVE ACTION MONITORING PLAN:
IRS will monitor this corrective action as part of our internal management system of controls.




                                                                                                           Page 21
